HHS/OIG, Audit - "Audit of North Carolina's Buy-In of Medicare Part B
Premiums for Medicaid Beneficiaries From April 2004 Through March 2007,"
(A-04-07-03011)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit
of North Carolina's Buy-In of Medicare Part B Premiums for Medicaid
Beneficiaries From April 2004 Through March 2007," (A-04-07-03011)
June 27, 2008
Complete
Text of Report is available in PDF format (780 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For
the quarters ended June 2004 through March 2007, the
North Carolina Department of Health and Human Services, Division of Medical
Assistance, did not claim Federal share for Medicare Part B premiums that it
paid on behalf of some Medicaid beneficiaries (buy-in) in accordance with
Federal requirements.  The Social Security Act allows States to use Medicaid
funds to pay Medicare Part B premiums on behalf of certain persons eligible for
both Medicare and Medicaid.  Of the
$722 million that the State claimed,
$698 million was eligible for Federal share, and approximately $24 million
(approximately $16 million Federal
share) was
for beneficiaries in buy-in eligibility
categories that were ineligible for Federal share.
We recommended that the State (1) refund
to the Federal Government the $16 million incorrectly claimed for Federal share
for Part B premiums, (2) perform a review of claims after the end of our audit
period and refund any unallowable Federal share, and (3) develop adequate
internal controls to ensure that Part B premiums claimed for Federal share are
only for beneficiaries in eligible categories.  The State concurred with our
finding and recommendations.